No. 20-7474
EZRALEE J. KELLEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h), I certify
that the Brief For Amici Curiae The Howard University School of Law Human and Civil Rights Clinic and
The National Association For Public Defense In Support Of Petitioner contains 5,965 words, excluding the
parts of the document that are exempted by Supreme
Court Rule 33.1(d).
/s/ Tiffany R. Wright
Counsel of Record

